           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


      ADMINISTRATIVE COSTS
         CLAIMED BY THE
       VERMONT DISABILITY
     DETERMINATION SERVICES

     October 2006   A-01-06-16041




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress,
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM
Date:      October 27, 2006                                                     Refer To:

To:        Manuel J. Vaz
           Regional Commissioner
            Boston

From:      Inspector General

Subject:   Administrative Costs Claimed by the Vermont Disability Determination Services
           (A-01-06-16041)


           For our audit of Fiscal Years (FY) 2002, 2003, and 2004 administrative costs claimed by
           the Vermont Disability Determination Services (VT-DDS), our objectives were to:
                    evaluate the VT-DDS’ internal controls over the accounting and reporting of
                     administrative costs,
                    determine whether costs claimed by the VT-DDS were allowable and funds were
                     properly drawn, and
                    assess limited areas of the general security controls environment.

           BACKGROUND
           Disability determinations under the Social Security Administration’s (SSA) Disability
           Insurance and Supplemental Security Income programs are performed by disability
           determination services (DDS) in each State or other responsible jurisdiction, according
           to Federal regulations. 1 Each DDS is responsible for determining claimants’ disabilities
           and assuring that adequate evidence is available to support its determinations. To
           make proper disability determinations, each DDS is authorized to purchase consultative
           medical examinations and medical evidence of record from the claimants’ physicians or
           other treating sources. SSA pays the DDS for 100 percent of allowable expenditures
           using a State Agency Report of Obligations for SSA Disability Programs (Form
           SSA-4513). (For additional background information, see Appendix B of this report.)




           1
               20 C.F.R. §§ 404.1601 et. seq. and 416.1001 et seq.
Page 2 – Manuel J. Vaz

RESULTS OF REVIEW
Except for the supply cost and indirect cost issues discussed below, we determined that
costs claimed on Forms SSA-4513 for the period October 1, 2001 through
September 30, 2004 were allowable and properly allocated, and the system of internal
controls was effective. We also did not identify cumulative draw downs that exceeded
cumulative disbursements during our audit period. Finally, our limited review of the
VT-DDS’ security controls environment showed that controls were in place. (See
Appendix C for costs reported on Forms SSA-4513.)

ACCOUNTING RECORDS DID NOT SUPPORT ALL OF THE SUPPLY COSTS
CLAIMED ON THE FY 2003 FORM SSA-4513

The VT-DDS claimed unallowable supply costs of $3,029 for FY 2003. The VT-DDS
claimed supply costs totaling $33,906 on the FY 2003 Form SSA-4513; however, it only
provided support for $30,877.

UNALLOWABLE INDIRECT COSTS WERE CLAIMED IN FY 2003

The VT-DDS claimed unallowable indirect costs of $333. The unallowable indirect costs
of $333 are due to the unallowable supply costs of $3,029 claimed in FY 2003.

CONCLUSION AND RECOMMENDATION
Generally, VT-DDS had effective internal controls over the accounting and reporting of
administrative costs. We also concluded that the general security controls the VT-DDS
had in place were satisfactory. However, VT-DDS claimed unallowable supply costs of
$3,029 and unallowable indirect costs of $333. Therefore, we recommend SSA instruct
the VT-DDS to return $3,029 for claimed supply costs and $333 for claimed indirect
costs that VT-DDS was unable to support.

AGENCY COMMENTS
Both SSA and the DDS agreed with the recommendation. (See Appendices D and E.)




                                               Patrick P. O’Carroll, Jr.
                                    Appendices
APPENDIX A – Acronyms

APPENDIX B – Background, Scope, and Methodology

APPENDIX C – Schedule of Total Costs Reported on Forms SSA-4513—State
             Agency Reports of Obligations for SSA Disability Programs

APPENDIX D – Agency Comments

APPENDIX E – Vermont Agency of Human Services Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                             Appendix A

Acronyms
Act           Social Security Act
C.F.R.        Code of Federal Regulations
DDS           Disability Determination Services
DI            Disability Insurance
FY            Fiscal Year
OMB           Office of Management and Budget
Pub. L. No.   Public Law Number
SSA           Social Security Administration
SSA-4513      State Agency Report of Obligations for SSA Disability Programs
SSI           Supplemental Security Income
Treasury      Department of Treasury
VT-DDS        Vermont Disability Determination Services
                                                                        Appendix B

Background, Scope, and Methodology
BACKGROUND

The Disability Insurance (DI) program, established under Title II of the Social Security
Act (Act), provides benefits to wage earners and their families in the event the wage
earner becomes disabled. The Supplemental Security Income (SSI) program,
established under Title XVI of the Act, provides benefits to financially needy individuals
who are aged, blind, or disabled.

The Social Security Administration (SSA) is responsible for implementing policies for the
development of disability claims under the DI and SSI programs. Disability
determinations under both the DI and SSI programs are performed by disability
determination services (DDS) in each State, Puerto Rico and the District of Columbia in
accordance with Federal regulations. 1 In carrying out its obligation, each DDS is
responsible for determining claimants’ disabilities and ensuring that adequate evidence
is available to support its determinations. To assist in making proper disability
determinations, each DDS is authorized to purchase medical examinations, x-rays, and
laboratory tests on a consultative basis to supplement evidence obtained from the
claimants’ physicians or other treating sources.

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. The DDS withdraws Federal funds through the Department of the
Treasury’s (Treasury) Automated Standard Application for Payments System to pay for
program expenditures. Funds drawn down must comply with Federal regulations2 and
intergovernmental agreements entered into by Treasury and States under the Cash
Management Improvement Act of 1990. 3 An advance or reimbursement for costs under
the program must comply with the Office of Management and Budget’s (OMB)
Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments. At the
end of each quarter of the Fiscal Year (FY), each DDS submits a State Agency Report
of Obligations for SSA Disability Programs (Form SSA-4513) to account for program
disbursements and unliquidated obligations.




1
    20 C.F.R. §§ 404.1601 et. seq. and 416.1001 et seq.
2
    31 C.F.R. Part 205.
3
    Pub. L. No. 101-453.


                                                   B-1
SCOPE

To accomplish our objectives, we reviewed the administrative costs Vermont Disability
Determination Services (VT-DDS) reported on its Forms SSA-4513 for FYs 2002,
2003 and 2004. For the periods reviewed, we obtained evidence to evaluate recorded
financial transactions and determine whether they were allowable under OMB
Circular A-87, and appropriate, as defined by SSA’s Program Operations Manual
System.

We also:
      Reviewed applicable Federal laws, regulations and pertinent parts of Program
       Operations Manual System DI 39500, DDS Fiscal and Administrative
       Management, and other instructions pertaining to administrative costs incurred
       by VT-DDS and draw down of SSA funds.
      Interviewed staff at VT-DDS and the SSA Regional Office.
      Evaluated and tested internal controls regarding accounting and financial
       reporting and cash management activities.
      Verified the reconciliation of official State accounting records to the administrative
       costs reported by VT-DDS on Forms SSA-4513 for FYs 2002, 2003 and 2004.
      Examined the administrative expenditures (personnel, medical service, and all
       other non-personnel costs) incurred and claimed by VT-DDS for FYs 2002, 2003
       and 2004 on Forms SSA-4513.
      Examined the indirect costs claimed by VT-DDS for FYs 2002, 2003 and 2004
       and the corresponding Indirect Cost Rate Agreements.
      Compared the amount of SSA funds drawn to support program operations to the
       allowable expenditures reported on Forms SSA-4513.
      Reviewed the State of Vermont Single Audit reports issued in 2002, 2003 and
       2004.
      Conducted limited general control testing—which encompassed reviewing the
       physical access security within the DDS.

The electronic data used in our audit was sufficiently reliable to achieve our audit
objectives. We assessed the reliability of the electronic data by reconciling it with the
costs claimed on the Forms SSA-4513. We also conducted detailed audit testing on
selected data elements in the electronic data files.

We performed our audit at the VT-DDS in Waterbury, Vermont and the Office of Audit in
Boston, Massachusetts from May through July 2006. We conducted our audit in
accordance with generally accepted government auditing standards.




                                            B-2
METHODOLOGY

Our sampling methodology encompassed the four general areas of costs as reported on
Forms SSA-4513: (1) personnel, (2) medical, (3) indirect, and (4) all other
non-personnel costs. We obtained computerized data from VT-DDS for FYs 2002,
2003, and 2004 for use in statistical sampling. Also, we reviewed general security
controls the DDS had in place.

Personnel Costs

We sampled 28 employee salary items from one randomly selected pay period in
FY 2004. We tested regular and overtime payroll and hours for each individual
selected. We verified that approved time records were maintained and supported the
hours worked. We tested payroll records to ensure the VT-DDS correctly paid
employees and adequately documented these payments.

We also sampled 14 medical consultant costs from one randomly selected pay period in
FY 2004. We determined whether sampled costs were reimbursed properly and
ensured the selected medical consultants were licensed.

Medical Costs

We sampled a total of 150 medical evidence of records and consultative examination
records (50 items from each FY) using a proportional random sample. We determined
whether sampled costs were properly reimbursed.

Indirect Costs

We reviewed the indirect cost base and computations used to determine those costs for
reimbursement purposes. Our objective was to ensure SSA reimbursed VT-DDS in
compliance with the approved Indirect Cost Rate Agreement. We analyzed the
approved rate used, ensuring the indirect cost rate changed when the Indirect Cost
Rate Agreement was modified. We reviewed the documentation and traced the base
amounts to Forms SSA-4513 for the indirect cost computation components. We
determined whether the approved rate used was a provisional, predetermined, fixed or
final rate.

All Other Non-Personnel Costs

We stratified all other non-personnel costs into 9 categories: (1) Occupancy,
(2) Contracted Costs, (3) Electronic Data Processing Maintenance,
(4) Equipment Purchases and Rental, (5) Communications, (6) Applicant Travel,
(7) DDS Travel, (8) Supplies, and (9) Miscellaneous. We selected a stratified random
sample of 50 items from each FY based on the percentage of costs in each category
(excluding the rent portion of Occupancy) to total costs. We also performed a
100 percent review of the rent portion of Occupancy expenditures.



                                         B-3
General Security Controls

We conducted limited general security control testing. Specifically we reviewed the
following eight areas relating to general security controls: (1) Perimeter Security,
(2) Intrusion Detection, (3) Key Management, (4) Internal Office Security, (5) Equipment
Rooms, (6) Security Plan, (7) Continuity of Operations, and (8) Other Security Issues.
We determined if the general security controls the DDS had in place were satisfactory.




                                          B-4
                                                        Appendix C

Schedule of Total Costs Reported on
Forms SSA-4513—State Agency Reports of
Obligations for Social Security Administration
Disability Programs
             Vermont Disability Determination Services

            FISCAL YEARS (FY) 2002, 2003 and 2004 COMBINED
                                     UNLIQUIDATED         TOTAL
 REPORTING ITEMS   DISBURSEMENTS     OBLIGATIONS       OBLIGATIONS
Personnel             $5,590,884            $0          $5,590,884
Medical               $1,402,430        $1,980          $1,404,410
Indirect                $511,160            $0            $511,160
All Other             $1,266,986            $0          $1,266,986
TOTAL                 $8,771,460        $1,980          $8,773,440

                               FY 2002
                                     UNLIQUIDATED          TOTAL
 REPORTING ITEMS   DISBURSEMENTS     OBLIGATIONS       OBLIGATIONS
Personnel             $1,819,574           $0           $1,819,574
Medical                 $457,519           $0             $457,519
Indirect                $173,666           $0             $173,666
All Other               $429,669           $0             $429,669
TOTAL                 $2,880,428           $0           $2,880,428
                               FY 2003
                                     UNLIQUIDATED          TOTAL
 REPORTING ITEMS   DISBURSEMENTS     OBLIGATIONS       OBLIGATIONS
Personnel             $1,878,963           $0           $1,878,963
Medical                 $453,536           $0             $453,536
Indirect                $159,195           $0             $159,195
All Other               $398,240           $0             $398,240
TOTAL                 $2,889,934           $0           $2,889,934
                               FY 2004
                                     UNLIQUIDATED         TOTAL
 REPORTING ITEMS   DISBURSEMENTS     OBLIGATIONS       OBLIGATIONS
Personnel             $1,892,347            $0          $1,892,347
Medical                 $491,375        $1,980            $493,355
Indirect                $178,299            $0           $178,299
All Other               $439,077            $0           $439,077
TOTAL                 $3,001,098        $1,980          $3,003,078
                  Appendix D

Agency Comments
                                          SOCIAL SECURITY
MEMORANDUM

Date:      September 25, 2006                                                             S2D1G5/ORC
                                                                                   Refer To:
                                                                                   2006-8409

To:        Patrick P. O’Carroll, Jr.
           Inspector General
From:      Manuel J. Vaz /s/
           Regional Commissioner
           Boston

Subject:   Administrative Costs Claimed by the Vermont Disability Determination Services (A-01-06-
           16041) (Your Memo Dated September 11, 2006) - REPLY


           I have reviewed the draft report with the results of an administrative costs audit in the Vermont
           Disability Determination Services (DDS).

           I am pleased that the audit determined that costs claimed on Forms SSA-4513 for the period
           October 1, 2001 through September 30, 2004 were allowable and properly allocated and that the
           system of internal controls was effective. Additionally, the audit found that cumulative draw
           downs matched cumulative disbursements during this audit period. Lastly, a limited review of
           the Vermont DDS’s security controls environment showed that controls are in place.

           The audit had one finding that showed that the Vermont DDS claimed unallowable supply costs
           of $3,029 for FY 2003. Because supply costs are included in the calculation of indirect costs, an
           adjustment to indirect charges results in further unallowable indirect costs of $333.

           I concur with the audit recommendation that SSA should instruct the Vermont DDS to return
           $3,029 for claimed supply costs and $333 for claimed indirect costs.

           I thank the OIG auditors for their diligence in the oversight of DDS funding and look forward to
           our continued partnership.


           cc:
           Ruby Burrell, Associate Commissioner, Office of Disability Determinations
           Jeffrey Hild, Associate Commissioner, Office of Financial Policy and Operations
                                Appendix E

Vermont Agency of Human Services Comments
                                            October 5, 2006

Manuel J. Vaz, Regional Commissioner
Social Security Administration
Room 1900
JFK Federal Building
Boston, MA 02203

Dear Commissioner Vaz,

      The State of Vermont has reviewed the Office of the Inspector General’s draft report
summarizing the findings of their 2006 audit of administrative costs claimed by the Vermont Disability
Determination Services (DDS) for federal fiscal years 2002, 2003, and 2004.

        The OIG’s audit findings included $3,029 in unallowable supply costs and $333 in unallowable
indirect costs claimed in federal fiscal year 2003. The State of Vermont concurs with the findings of
this audit and will refund the Social Security Administration a total of $3,362 for the unallowable
costs.

       The Vermont DDS will incorporate the following steps into their fiscal processes to reinforce
the accuracy of their fiscal reports:
         •   The DDS Accountant will annotate the DDS electronic fiscal spreadsheet at the time an
             invoice is paid through the State’s accounting system (VISION). After the invoice has
             been processed for payment, the Accountant will verify the amount paid on VISION and
             annotate the fiscal spreadsheet with the date of payment and the voucher number.
         •   The Support Services Supervisor will conduct a monthly quality review to ensure
             invoices are accurately reported on the DDS fiscal spreadsheets.

       It is expected that these monitoring processes will ensure future fiscal oversights do not occur.
                                               Sincerely,




cc: Trudy Lyon-Hart, Director, Disability Determination Services
                                                                      Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division, (617) 565-1765

   David Mazzola, Audit Manager, (617) 565-1807

Acknowledgments

In addition to those named above:

   Frank Salamone

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-01-06-16041.
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
              Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and
Office of Resource Management (ORM). To ensure compliance with policies and procedures,
internal controls, and professional standards, we also have a comprehensive Professional
Responsibility and Quality Assurance program.

                                       Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and
cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management and program evaluations
and projects on issues of concern to SSA, Congress, and the general public.

                                  Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties.
This office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                 Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.

                             Office of Resource Management
ORM supports OIG by providing information resource management and systems security.
ORM also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
